      Evaluation Report




OIG-CA-09-012
INFORMATION TECHNOLOGY: FMS’s Database Management
Systems Have Weaknesses in Key Controls

September 29, 2009



Office of
Inspector General
Department of the Treasury
Evaluation Report.......................................................................................... 4

    Results in Brief ............................................................................................. 6

    Background ................................................................................................. 6

    Findings and Recommendations ..................................................................... 7

        Database Patches Were Not Applied in a Timely Manner .............................. 7
        Recommendation ..................................................................................... 8

        Database Users Were Granted Excessive Privileges ...................................... 8
        Recommendation ..................................................................................... 8

        Account and Password Management Was Not Effective ................................ 9
        Recommendations................................................................................... 10

        Security Controls Over a Legacy System Were Inadequate........................... 10
        Recommendations................................................................................... 11


Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              13
    Appendix     2:      Management Comments ........................................................           15
    Appendix     3:      Major Contributors ................................................................    17
    Appendix     4:      Report Distribution ................................................................   18




                          FMS’s Database Management Systems Have Weaknesses in Key                           Page 1
                          Controls(OIG-CA-09-012)
Abbreviations

  FMS           Financial Management Service
  IT            Information Technology
  NIST          National Institute of Standards and Technology
  OIG           Office of Inspector General




                FMS’s Database Management Systems Have Weaknesses in Key   Page 2
                Controls(OIG-CA-09-012)
       This Page Intentionally Left Blank.




FMS’s Database Management Systems Have Weaknesses in Key   Page 3
Controls(OIG-CA-09-012)
                                                                            Evaluation
OIG
The Department of the Treasury
                                                                              Report
Office of Inspector General

                  September 29, 2009

                  David A. Lebryk
                  Commissioner
                  Financial Management Service

                  The purpose of this evaluation was to assess the security of
                  Financial Management Service’s (FMS) database management
                  systems. Our overall objective was to determine if FMS had
                  security controls over its database servers, which contain sensitive
                  and vital information, that adequately protect that information
                  against unauthorized access, manipulation, or theft.

                  To accomplish our objective, we planned to perform a vulnerability
                  assessment and penetration test of FMS’s database management
                  systems. Specifically, we planned (1) a discovery scan of FMS’s
                  primary network to identify databases installed on the FMS
                  network and to reconcile the results of the scan with FMS’s
                  database list, (2) an unauthenticated vulnerability scan of selected
                  databases, (3) an authenticated vulnerability scan of selected
                  databases, and (4) an exploitation of database vulnerabilities.
                  Because of the way in which FMS configures its network, we were
                  not able to execute our plan for discovery scanning and
                  reconciliation with FMS’s database list. Instead, we relied on a list
                  of databases provided by FMS and compared it with Treasury’s
                  system inventory. We selected databases for unauthenticated and
                  authenticated scanning using a risk-based approach which resulted
                  in crosscut sample of FMS databases. Furthermore, we performed
                  automated scanning and manual testing of preproduction databases
                  and then manually compared the production and preproduction
                  environments. Since we did not identify any vulnerability that could
                  be exploited, we did not perform any penetration testing of FMS’s
                  database management systems.

                  We performed our fieldwork at FMS’s facilities in Hyattsville,
                  Maryland, from December 2008 through February 2009, in


                                                                                      Page 4
                  FMS’s Database Management Systems Have Weaknesses in Key Controls
                  (OIG-CA-09-012)
                       accordance with the Council of the Inspectors General on Integrity
                       and Efficiency’s Quality Standards for Inspections. 1 Appendix 1
                       contains a detailed description of our objective, scope, and
                       methodology.




1
  Pursuant to the Inspector General Reform Act of 2008, the President's Council on Integrity and
Efficiency and the Executive Council on Integrity and Efficiency were combined to create the Council of
Inspectors General on Integrity and Efficiency.

                       FMS’s Database Management Systems Have Weaknesses in Key Controls         Page 5
                       (OIG-CA-09-012)
Results in Brief
               We determined that FMS’s database management systems had
               weaknesses in key security controls and identified areas where
               FMS should take steps to improve the security controls over its
               database management systems. Our overall findings were as
               follows:

               1.   Database patches were not applied in a timely manner.
               2.   Database users were granted excessive privileges.
               3.   Account and password management was not effective.
               4.   Security controls over a legacy system were inadequate.

               To address these weaknesses, we made nine recommendations to
               the Commissioner of FMS. In a written response, FMS stated they
               had taken corrective actions for each of the findings, including
               patching or scheduling patches for all production databases,
               modifying privilege settings, correcting account passwords, and
               implementing the recommended controls for the legacy system.

Background
               FMS provides centralized payment, collection, and reporting
               services for the federal government. It is staffed by approximately
               2,100 career civil servants and disburses more than $1.6 trillion to
               more than 100 million individuals via social security and verteran’s
               benefits, income tax refunds, and other federal payments. In
               addition, it collects more than $3.11 trillion per year in payments
               on behalf of the federal government. FMS also provides cash
               management guidance to federal program agencies and collects
               delinquent debts owed to the federal government.

               To protect the confidentiality, integrity, and availability of sensitive
               financial data, proper security controls must be in place on FMS’s
               database systems. These controls are necessary to prevent
               unauthorized access, use, disclosure, disruption, modification, or
               destruction of data. Missing, insufficient, improper, misconfigured,
               or poorly designed controls can be exploited by attackers to gain
               unauthorized access to databases and the information they contain.


               FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 6
               (OIG-CA-09-012)
            Database management systems, which control database operations
            and security, are complex software programs that require
            continuous maintenance and patching to ensure protection from
            vulnerabilities that can allow established security controls to be
            bypassed. Additionally, because database management systems
            often have control over the operating system they run on, the host
            and network security can be compromised when vulnerabilities are
            present in the database’s front-end interface or in the database
            management system itself.



Findings and Recommendations

Finding 1   Database Patches Were Not Applied in a Timely Manner

            We determined that FMS did not apply patches to its database
            management systems in a timely manner. Specifically, we found
            that 1 Oracle system had not been patched since January 2006, 6
            DB2 installations had not been patched since November 2006, 1
            DB2 installation had not been patched since April 2005, and 1
            Sybase installation had not been patched since January 2007.
            While FMS uses a preproduction environment for testing patch
            changes, we found that the preproduction databases also
            significantly lagged behind the latest released patches.

            Treasury Department Publication (TD P) 85-01, Treasury IT
            Security Program, contains department-wide IT security
            requirements and supporting guidance and requires bureaus to
            ensure that security patches are tested and installed on a timeline
            in accordance with the criticality of the patches.

            The vulnerabilities resulting from the missing patches identified
            could be exploited by a determined attacker to disrupt service on
            FMS's mission-critical database systems. Without these patches,
            the risk of disruption is increased so that attackers could launch
            denial of service attacks on FMS database systems or compromise
            system confidentiality or integrity, thus disrupting access to
            mission-critical resources.



             FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 7
             (OIG-CA-09-012)
            Recommendation

            1. We recommend that the Commissioner of FMS, in accordance
               with TD P 85-01, ensure that patches are tested and installed in
               a timely manner, commensurate with the criticality of the
               patches to FMS’s database management systems.

Finding 2   Database Users Were Granted Excessive Privileges

            We identified several instances where users were assigned
            excessive privileges within FMS’s database management systems.
            The privileges granted could allow users to (1) create database
            procedures that allow execution of malicious code; (2) have
            administrative authority for the database; and (3) read from and
            write to operating system files.

            National Institute of Standards and Technology (NIST) Special
            Publication (SP) 800-53 Revision 2 (Rev. 2), Recommended
            Security Controls for Federal Information Systems, states the
            following: "[T]he information system enforces the most restrictive
            set of rights/privileges or accesses needed by users (or processes
            acting on behalf of users) for the performance of specified tasks.
            The organization employs the concept of least privilege for specific
            duties and information systems (including specific ports, protocols,
            and services) in accordance with risk assessments as necessary to
            adequately mitigate risk to organizational operations, organizational
            assets, and individuals."

            Granting excessive privileges to users can allow users or potential
            attackers to bypass access controls and compromise data
            confidentiality, integrity, and availability.

            Recommendation

            2. We recommend that the Commissioner of FMS ensure that
               unnecessary database privileges are removed and that going
               forward the principle of least privilege is enforced.




            FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 8
            (OIG-CA-09-012)
Finding 3   Account and Password Management Was Not Effective

            We discovered that FMS did not implement proper account
            management, which could lead to the compromise of system
            security. Specifically, we found six accounts on the mainframe
            with passwords that were the same as the user names associated
            with the respective accounts. While five of the accounts were
            established for batch processing and did not have rights to log onto
            the system, one of the accounts did have full interactive logon
            privileges. The FMS database and mainframe administrators
            responsible for the system were not aware of these issues and
            stated they would take immediate actions to address them.
            However, our discovery of these vulnerabilities indicates that steps
            to detect such issues, including frequent reviews of system
            accounts, are not regularly performed. Additionally, we found that
            an Oracle system allowed remote access connections using a
            method that did not lock out accounts after a number of invalid
            password attempts.

            NIST SP 800-53 Rev. 2 states: "The organization manages
            information system accounts, including establishing, activating,
            modifying, reviewing, disabling, and removing accounts. The
            organization reviews information system accounts [at an agency
            defined period, at least annually]." In addition, TD P 85-01 defines
            the control period for account reviews as at least annually for user
            accounts and requires that accounts be locked after three invalid
            attempts in 120 minutes.

            When accounts and passwords are not administered effectively,
            the risk of unauthorized users or attackers gaining access to the
            system with easily guessed passwords is increased. Furthermore,
            once that access is gained, attackers could create additional
            accounts to provide themselves a foothold to further access the
            system by bypassing other security controls. In addition, when
            accounts on a remote connection are not locked after a set number
            of invalid password attempts, attackers can continue guessing
            passwords without being deterred.




            FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 9
            (OIG-CA-09-012)
            Recommendations

            We recommend that the Commissioner of FMS:

            3. Ensure that periodic reviews of system accounts are performed
               to disable or remove unnecessary accounts, as required by TD P
               85-01.
            4. Ensure that service and application accounts do not have the
               rights to log on to a system interactively.
            5. Ensure that all accounts have strong passwords.
            6. Enforce account lockout controls as required by TD P 85-01.

Finding 4   Security Controls Over a Legacy System Were Inadequate

            We performed manual testing on one of FMS's legacy production
            database systems to assess its associated security controls. While
            this database is no longer used to store business information on
            new contracts, it is maintained for access and updates to legacy
            contracts. We found multiple areas where the system did not have
            adequate security controls, including accounts for users who no
            longer needed access, database administrator accounts for
            terminated personnel, end user accounts with assigned
            administrative privileges, and accounts with no password
            expiration. Based on our review of the system logs, the system is
            not frequently used. However, since it is connected to FMS's
            network, it requires proper security controls.

            NIST Federal Information Processing Standard 200, “Minimum
            Security Requirements for Federal Information and Information
            Systems,” states that federal agencies must meet the minimum
            security requirements it defines through the use of security
            controls in accordance with NIST SP 800-53 Rev. 2 which states
            the following: "[T]he organization manages information system
            accounts, including establishing, activating, modifying, reviewing,
            disabling, and removing accounts. The organization reviews
            information system accounts at an agency defined period, at least
            annually."TD P 85-01 defines the period for account reviews as “at
            least annually” for user accounts within Treasury.




            FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 10
            (OIG-CA-09-012)
Failure to properly maintain systems that are connected to a
network, including infrequently used legacy systems, can provide
an unmonitored avenue of attack to an otherwise secure network.
Because of the missing security controls and unsupported status of
the legacy system, the data it contains could be compromised.

Recommendations

We recommend that the Commissioner of FMS:

7. Review inactive or idle accounts on the legacy systems and
   remove unnecessary accounts when access is no longer
   needed.
8. Enforce account password compliance on legacy systems, as
   required by TD P 85-01.
9. Review and remove excessive privileges on legacy system.


Management Response

As noted in appendix 2, FMS management stated that they have
already implemented corrective actions for the identified
weaknesses and will ensure compliance with Treasury and FMS
policies.

OIG Comment

We agree that the steps FMS stated they have taken are
responsive to the intent of our findings and recommendations.




FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 11
(OIG-CA-09-012)
                               ******

I would like to extend my appreciation to the Commissioner of FMS
and to FMS staff for the cooperation and courtesies extended to
my staff during the evaluation. If you have any questions, please
contact me at (202) 927-5171 or Gerald Steere, IT Specialist, at
(202) 927-6351. Major contributors to this report are listed in
appendix 3.


/s/

Tram Jacquelyn Dang
Audit Director




FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 12
(OIG-CA-09-012)
Appendix 1
Objective, Scope, and Methodology




The purpose of this evaluation was to assess the security of
database management systems at the Department of the
Treasury’s Financial Management Service (FMS). Our overall
objective was to determine if FMS had security controls over its
database servers, which contain sensitive and vital information,
that adequately protect that information against unauthorized
access, manipulation, or theft.

To accomplish the objective, we planned to perform a vulnerability
assessment and penetration testing of FMS’s database
management systems. Specifically, we planned (1) a discovery
scan of FMS’s primary network to identify databases installed on
the FMS network and to reconcile the results of the scan with
FMS’s database list, (2) an unauthenticated vulnerability scan of
selected databases, (3) an authenticated vulnerability scan of
selected databases, and (4) an exploitation of database
vulnerabilities. Because of the way in which FMS configures its
network, we were not able to execute our plan for discovery
scanning and reconciliation with FMS’s database list. Instead, we
relied on a list of databases provided by FMS and compared it with
Treasury’s system inventory. We selected databases for
unauthenticated and authenticated scanning using a risk-based
approach which resulted in crosscut sample of FMS databases. We
chose our sample based on the following factors (in descending
order of importance):

1. availability of a preproduction databases to scan
2. database criticality or NIST Federal Information Processing
   Standard 199 rating, which reflects the impact level of the
   system on the Agency mission--systems with a high impact
   level were a priority
3. vendor of the database management system in use to provide
   coverage of each system type used by FMS
4. purpose of the system, as described in FMS's inventory

Furthermore, because of the potential disruption to its daily
business functions, FMS management asked us not to scan
production databases. We agreed, and as an alternative we
performed automated scanning and manual testing of
preproduction databases and then manually compared the
production and preproduction environments. Since we did not

FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 13
(OIG-CA-09-012)
Appendix 1
Objective, Scope, and Methodology


identify any vulnerability that could be exploited, we did not
perform any penetration testing of FMS’s database management
systems.

We performed our fieldwork at FMS’s facilities in Hyattsville,
Maryland, from December 2008 through February 2009. We
conducted our evaluation in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards
for Inspections.




FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 14
(OIG-CA-09-012)
Appendix 2
Management Response




FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 15
(OIG-CA-09-012)
Appendix 2
Management Response




FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 16
(OIG-CA-09-012)
Appendix 3
Major Contributors




Office of IT Audits

Tram J. Dang, Director
Susan I. Miller, IT Audit Manager
Gerald J. Steere, IT Specialist (Lead)
Abdirahman M. Salah, IT Specialist
Jane E. Lee, IT Specialist
Larissa Klimpel, IT Specialist
Shiela Michel, Referencer




FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 17
(OIG-CA-09-012)
Appendix 4
Report Distribution




Financial Management Service

   Chief Information Officer

Department of the Treasury

   Office of Accounting and Internal Control
   Office of Strategic Planning and Performance Management
   Office of the Chief Information Officer

Office of Management and Budget

   Office of Inspector General Budget Examiner




FMS’s Database Management Systems Have Weaknesses in Key Controls   Page 18
(OIG-CA-09-012)
